                    U.S. Department of the Interior
                        Office of Inspector General



               FLASH REPORT




                                                 DOI-OIG Photo
Department of the Interior: Risking People and
Property by Flying Airplanes in Excess of Federal
Aviation Administration and Manufacturer Specifications


WR-EV-OSS-0005-2008                   February 2009
                 United States Department of the Interior

                          OFFICE OF INSPECTOR GENERAL
                                      Washington, D.C. 20240


                                                                                      FEB 9 2009
Memorandum

To:            Secretary Salazar

From:          Earl E. Devaney
               Inspector General

Subject:       Flash Report — Department of the Interior: Risking People and Property by
               Flying Airplanes in Excess of Federal Aviation Administration and
               Manufacturer Specifications (Report No. WR-EV-OSS-0005-2008)

   This report describes conditions of eight Department-owned aircraft that pose vital risk to
people and property. The National Business Center Aviation Management Directorate (NBC-
AMD) has allowed these aircraft to be flown over maximum takeoff gross weight in excess of
FAA regulations and manufacturer specifications.

   We discovered this situation while conducting our ongoing evaluation of aviation safety. In
addition, we learned that the U.S. Fish and Wildlife Service (USFWS) Division of Migratory
Bird Management is performing mission work using an uncertificated aircraft. Although
Departmental policy requires all fleet aircraft be FAA certificated, one is not.

    For over a decade, NBC-AMD has granted waivers to fly eight aircraft over maximum
takeoff weight. The waivers were originally requested because 1) the missions were flown in
remote areas of the Continental United States, Alaska, Canada, and Mexico, where airports,
fuel, and weather reporting stations are limited, and 2) no aircraft in production could meet the
combination of load carrying capacity and endurance needed to safely fly service missions in
those environments. The latter no longer holds true.

     Although FAA rules do not apply to Federal agencies and the Department has taken some
actions to mitigate the risks associated with exceeding the FAA maximum takeoff weight, risks
still exist and other options are available.

    We ask that you direct the USFWS and the NBC to inform us of their course of action
within 30 days. If you have any comments or questions regarding this report, please do not
hesitate to contact me at (202) 208-5745.

cc: Doug Bourgeois, Director, National Business Center
    Jane Lyder, Acting Assistant Secretary for Fish and Wildlife and Parks
    Pamela K. Haze, Acting Assistant Secretary for Policy, Management and Budget
Cessna 206 Amphibious Airplanes                                 FAA certificated maximum takeoff weight
                                                                of 3,792 to 3,800 pounds. The waiver was
    In 1996, the USFWS began replacing                          granted on the condition that USFWS 1)
their Cessna 185s with used Cessna 206                          conduct analysis of the airframe structure
aircraft to eliminate the risks entailed in                     and aircraft performance and 2) acquire
flying aircraft over certificated1 gross                        aircraft capable of performing its mission
weight limitations. Today, their average                        within FAA certificated limits. In April of
age is 29 years.                                                2001, USFWS completed the analysis and
                                                                concluded that modified Cessna 206
    Shortly after taking delivery of the                        amphibious airplanes “have adequate, but
Cessna 206s, it was discovered that                             not surplus, performance for the survey
missions could not be conducted within                          mission.”
certified gross weight limits.
Consequently, these aircraft have been                              Also in April 2001, USFWS contracted
flown in excess of FAA regulations and                          for an engineering structural study, which
manufacturer specifications over the past                       provided several recommendations but no
10 years.                                                       conclusions. Most importantly, the report
                                                                provided no determination of ultimate load
    Clearly, the decision to acquire Cessna                     limits or conclusions indicating that the
206s was a poor one. The error was                              USFWS modified Cessna 206 aircraft have
compounded when NBC-AMD (which                                  the structural strength to operate safely at
manages the planes for USFWS) and                               4,200 pounds. The ultimate load limits
USFWS decided to mitigate the problem                           determine how much weight an aircraft can
rather than solve it.                                           carry without structural or mechanical
                                                                damage. Without knowing those limits, it
    In July and October 1998, USFWS                             is difficult to determine an equivalent level
requested and received a special FAA                            of safety.
flight permit to conduct ferry flights at
gross weights up to 4,200
pounds. This exceeded
maximum takeoff gross weight
in two Cessna 206 aircraft.
Months later, the FAA revoked
the permit, indicating that its
intent had been to permit “one-
time ferry flights and definitely
not to allow potentially
hazardous flights with vastly
increased gross weight
conditions on a regular basis.”

    Then, in 1999, NBC-AMD
granted USFWS a waiver to
operate at the extended gross
weight of 4,021 to 4,200 pounds One of the Cessna 206s flown overweight                            DOI-OIG Photo
or 229 to 400 pounds over the

                                                         1
1
 Certificated: An airworthiness certificate is an FAA document that grants authorization to operate an aircraft in
flight.
    One recommendation was
that the USFWS record and
download g-load data2 to a
laptop computer on a regular
basis to assess future fatigue.
The engineer who conducted
the study recommended “a
system that could be
programmed to record date,
time, and any g-load events
over a given threshold (say 2
g’s or more).” He stated this
would give a running structural
history of the aircraft, and the
USFWS could use the data to
schedule special inspections and
maintenance.

    USFWS and NBC-AMD are
not fully implementing this
recommendation. In a memo
dated February 26, 2002, the
NBC-AMD Acting Aviation            Another Cessna 206 flown overweight                DOI-OIG Photo
                                                                               3
Safety Manager voiced concerns that no                 study found wing spar failures on at least
assessment of fatigue or ultimate load                 two of the Cessna 206s with extended wing
limits had been done on the Cessna 206                 tips. The rear wing spar had damage at the
airplanes. G-meters are installed in all               attach point and indicated an overload in
seven Cessna 206s, but the information is              negative bending. Because the damage
not directly downloaded to a computer, nor             was discovered during routine inspections,
is any formal analysis being done.                     we have no knowledge of the incidents that
                                                       produced the damage.
    Instead, USFWS pilots record all
operations at or above certificated gross                  Shortly after this discovery, an
weight, which is 3,800 pounds. Repetitive              inspection of all Cessna 206s was
loads or high g-loads occurring below                  conducted. This inspection uncovered
weights of 3,800 pounds are not currently              another spar fracture in a different aircraft.
recorded. Not only did USFWS and NBC-                  The NBC-AMD Acting Aviation Safety
AMD fail to meet the study’s                           Manager stated, “The cause of wing spar
recommendations for fatigue assessment,                failures on both aircrafts could not be
the NBC-AMD Acting Safety Director                     determined nor has any information been
stated in February 2002 that inspections are           found to eliminate overweight operations
not a reliable source because metal fatigue            as a cause or contributing factor.”
can occur without being visually
detectable.                                                After operating these aircraft
                                                       overweight for several years, USFWS
    In addition, the April 2001 structural             contracted with Quest Aircraft Company to

                                                         2
2
  G-Load Data: Data from a G-meter that tells a pilot how many G forces they are pulling in particular maneuvers.
3
 Wing Spar: Any of the main longitudinal members of the wing of an airplane that carry the ribs.
provide five to eight new Kodiak Quest                 aircraft with or without their airworthiness
aircraft.                                              certificates, selling them for scrap, and
                                                       selling a few of them but rotating the rest
    Replacement of the Cessna 206s began               back into the USFWS fleet where they
when the first of the five Kodiak aircraft             would no longer be flown over takeoff
was delivered the first week of this year.             weight. One NBC-AMD official said that
Three additional aircraft purchases are                “these planes should be crushed,” in effect,
optional under the current contract.                   taken out of service and scrapped.

                                                                Turbine Beaver Airplane
                                                                   Built in 1952, the
                                                                Department’s Turbine Beaver
                                                                aircraft was modified in the early
                                                                1970s to its current configuration.
                                                                The work was done at NBC-
                                                                AMD’s Lake Hood Seaplane
                                                                Base facility in Anchorage,
                                                                Alaska.

                                                              The extensive modifications
Kodiak Quest Aircraft                         NBC-AMD Photo associated with the aircraft’s
                                                              turbine conversion prevented it
USFWS expects delivery of one more                  from being certificated by the FAA.
aircraft this year, two aircraft in 2010, and       Because the Turbine Beaver is an
the fifth aircraft in 2011. However, we             uncertified Government-owned aircraft, no
have not seen a definitive delivery                 maximum takeoff gross weight is set.
timetable for all the Kodiak aircraft.              However, the Turbine Beaver does operate
                                                    at a takeoff weight in excess of that
    USFWS and NBC-AMD agreed that                   allowed for Beaver aircraft certificated by
the waiver to operate the Cessna 206s               the FAA.
would sunset no later than the end of
fiscal year 2010, which is beyond the
anticipated delivery date of the
remaining Kodiak replacement
aircraft. USFWS expects NBC-AMD
to extend the sunset date.

    Another safety concern is the
future of the Cessna 206s after they are
replaced with the Kodiaks.
NBC-AMD and USFWS provided a
variety of answers regarding the future
of these planes.

   The options included selling the
                                           Turbine Beaver                          NBC-AMD Photo
                                                  3
    NBC-AMD official correspondence                and the Director of NBC immediately halt
reports that this aircraft is more than 55         the use of these airplanes and remove them
years old and has been operated at higher          from service as non-airworthy assets. 
than standard Beaver takeoff weight for
over 30 years. NBC-AMD has stated that                 We are issuing this flash report to
it has no intention of intervening to stop         notify both NBC and USFWS management
use of the Turbine Beaver as long as the           of serious safety issues so that immediate
aircraft continues to pass required                action can be taken. Our aviation safety
airworthiness inspections.                         evaluation will address other management
                                                   safety issues that came to our attention.
Overall OIG Assessment
    NBC-AMD and USFWS officials are
clearly aware of the risks associated with
flying aircraft over their maximum takeoff
gross weight limits. They have stated in
justifications for replacement aircraft that
“a critical risk has been identified with
flying low-level surveys with aging
aircraft, particularly Cessna 206
amphibious aircraft.” In addition, NBC-
AMD has indicated increasing liability
concerns over operation of aircraft above
certified weights.

    While both organizations have
acknowledged the risks, neither agency has
taken immediate, effective actions to
resolve these safety issues. The NBC-
AMD and USFWS steps taken to purchase
new Kodiak airplanes are commendable,
but they do not eliminate the risks
associated with flying the remaining
Cessna 206 planes over takeoff weight in a
timely manner or deal with the replacement
of the Turbine Beaver. These eight
airplanes continue to be flown when other
suitable aircraft services are available,
through purchase or lease, in the open
market that would meet USFWS mission
requirements.

Recommendation
   We recommend that the Assistant
Secretary for Fish and Wildlife and Parks

                                               4
